OIG Investigative Reports, Mother and Daughter Enter Guilty Pleas
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Wichita, Kansas, April 17, 2001
Contacts::
Kena Rice (316) 269-6481
Headquarters
1200 Epic Center
301 N. Main
Wichita, Kansas 67202
Mother and Daughter Enter Guilty Pleas
WICHITA, Kansas - United States Attorney Jackie Williams announced today that Susan Hampton, 59, and Sharon Mathis, 40, both of Wichita, Kansas, each entered a guilty plea on April 16, 2001, before U.S. District Judge J. Thomas Marten. Hampton entered a guilty plea to one count of failing to return student loans to lending institutions and one count of making a false statement to the Department of Education. Mathis entered a guilty plea to one count of failing to return student loans to lending institutions.
Williams said that Hampton, former owner of Climate Control Institute, Inc., (CCI), and Mathis, former Financial Aid Director at CCI, admitted at their pleas that from April 16, 1996, through October 18, 2000, they intentionally failed to return student loans to lending institutions when students withdrew from CCI resulting in a loss to The Department of Education. Hampton also admitted that on November 24, 1997, she knowingly presented copies of altered checks to the Department of Education representing that these false checks had been used by CCI to repay student loans.
Hampton faces a maximum of five years in federal prison, without parole, on each count. Mathis faces a maximum of five years in federal prison, without parole. No sentencing date has yet been set.
The case was investigated by the Department of Education. Williams commended the excellent work of the Department of Education in this investigation.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov